HHS/OIG, Audit - "Review of Aid of Family With Dependent Children
Overpayments in Connecticut for the Period April 2001 Through March 2005,"
(A-01-05-02501)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Aid of Family With Dependent Children
Overpayments in Connecticut for the Period April 2001 Through March 2005,"
(A-01-05-02501)
March 27, 2006
Complete
Text of Report is available in PDF format (251 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Connecticut has
continued to reimburse the Federal Government for its share of collected Aid to
Families with Dependent Children (AFDC) overpayments in a timely manner.
Connecticut reimbursed the Federal share of AFDC collections for 15 of the 16
quarters that we reviewed.  It did not reimburse the Federal share of AFDC
collections for one quarter in a timely manner.  We recommended that Connecticut
strengthen its internal controls to verify that the Federal Government receives
its share of future AFDC collections.  Connecticut agreed to renew efforts to
verify that the Federal Government receives and cashes checks from the State.